No. 21-108
In the

Supreme Court of the United States
CLINT A. KRISLOV, et al.,
Petitioners,
v.
COOK COUNTY OFFICERS
ELECTORAL BOARD, et al.,
Respondents.

On Petition for a Writ of Certiorari to the
United States Court of A ppeals for the Seventh Circuit

REPLY BRIEF
Clinton A. Krislov
Counsel of Record
Kenneth T. Goldstein
Krislov & A ssociates, Ltd.
20 North Wacker Drive, Suite 1006
Chicago, IL 60606
(312) 606-0500
clint@krislovlaw.com
Attorneys for Petitioners

308130

A
(800) 274-3321 • (800) 359-6859

1
The Respondents ignore the two issues compelling
this Court’ review:
(i) Whether the public interest exception to mootness,
while recognized by most State supreme courts, exists in
federal court at all.1 This Court’s recent Uzuegbunam v.
1. Fialka-Feldman v. Oakland University Board of Trustees,
639 F.3d 711, 716 (6th Cir. 2011):
Most state courts, we recognize, have “public interest”
exceptions to their mootness, standing and ripeness
doctrines, and in most instances permit their appellate
courts to entertain appeals about issues of “continuing
public importance” after the cases otherwise become
moot on appeal. See, e.g., Mead v. Batchlor, 435 Mich.
480, 460 N.W.2d 493, 496 (Mich. 1990); Zoning Bd. of
Adjustment v. DeVilbiss, 729 P.2d 353, 356 n.4 (Colo.
1986); Rush v. Ray, 332 N.W.2d 325, 326 (Iowa 1983);
see also Gator.com Corp. v. L.L. Bean, Inc., 398 F.3d
1125, 1141 (9th Cir. 2005) (en banc) (Fletcher, J.,
dissenting) (“[A]lmost every state in the union has
an exception for cases on appeal that raise questions
of ‘continuing public importance.’”) (collecting cases).
But see Collins v. Lombard Corp., 270 Ga. 120, 508
S.E.2d 653, 655 (Ga. 1998); Loisel v. Rowe, 233 Conn.
370, 660 A.2d 323, 332 (Conn. 1995). Yet this reality
reflects an essential difference between the two court
systems—that the federal courts are courts of limited
jurisdiction and that the state courts are courts of
general jurisdiction. Article III does not constrain
the state courts. Many state courts thus not only
have authority to relax their rules on mootness, but
they also permit advisory opinions and indeed some
State constitutions explicitly provide for them. See,
e.g., R.I. Const. art. 10, § 3; In re Ops. of the Justices
to the Senate, 440 Mass. 1201, 802 N.E.2d 565 (Mass.
2004); Op. of the Justices of the Supreme Judicial
Court, 2002 ME 169, 815 A.2d 791 (Me. 2002); In re

2
Preczewski, ___U.S.___, 141 S. Ct. 792 (2021) decision,
finding a justiciable controversy for First Amendment
restrictions that will only apply to future students,
recognizing standing from even presumed nominal
damages, should be read as either recognizing a federal
“public interest” exception for repeatedly recurring
issues, or as requiring a form “nominal damages” demand
insert in all federal civil rights complaints.
(ii) In ballot petition battles, either “the capable
of repetition yet evading review” or “public interest”
exception should be applied satisfying A rticle III
concerns. Instead in ballot access cases this Court has
refrained from declaring the public interest exception
cannot exist. 2 This is particularly apt here, in which the
Mun. Suffrage to Women, 160 Mass. 586, 36 N.E. 488,
492 (Mass. 1894) (Holmes, J.).
See, Comment: Rebecca Sonne, Hearing The Case For The
Constitutionality Of Election Laws On The Merits, 57 Hous. L.
Rev. 753 (concluding that challenges to elections laws should
be heard on their merits, not moot in federal courts who should
accept “capable of repetition yet evading review” and “public
interest” mootness exceptions in election cases) at FN 99, citing
Fialka-Feldman v. Oakland Univ. Bd. of Trs., 639 F.3d 711, 716
(6th Cir. 2011); Gator.com Corp. v. L.L. Bean, Inc., 398 F.3d 1125,
1141-42 (9th Cir. 2005) (Fletcher, J., dissenting) (citing cases
applying the “public interest” exception in Idaho, Hawaii, Nevada,
Alaska, Florida, Washington, California, New York, Arizona, and
Montana).
2. See, Sonne, Hearing The Case For The Constitutionality
Of Election Laws On The Merits, 57 Hous. L. Rev. at 761 see FN
47 and 48, citing Fialka-Feldman, 639 F.3d at 716 (“The Supreme
Court has never recognized any such exception and in several
instances has refused to adopt one.”).

3
issue is sufficient showing for ballot access, rather than
who wins.
Thus, this case is an unusually appropriate vehicle
for this recurring legal issue; because in every election
cycle around the nation, the ballot petition battles raise
candidate rights, voters rights, and provides the bedrock
of our electoral government and is proof of constitutional
fairness and validity – the signature process here unfairly
eliminates non-organization contenders by a process in
which their supporters are stricken by the subjective
decisions of nonexpert evaluators, without permitting even
the showing that the statistical margins of error (showing
a greater propensity to reject valid signatures, than to
accept invalid ones) demonstrate that the candidate has, in
fact presented the required modicum of support to be on
the ballot. 3 Different from the final election voting count,
3. The Respondents’ Opposition conflates election voting
results (the number of votes cast and counted) (Resp. Opp. at 1516) which is an objective number with a candidate’s nominating
petition (a collection of signatures of registered voters subject
to challenge and review) and whether in the challenge process
the signature defender is permitted to put into evidence well
recognized statistical evidence of meeting a circulated petition
signature requirement by being within the margin of error. This
is so because the process is subjective. Here, the Respondent
Opposition make no opposition to the Petition’s demonstration of
the admissibility statistical evidence in a variety of contexts, Pet.
at 15-17, and then Respondent fails to consider the context here,
that the counting of signatures for ballot access is subjective,
contrary to vote counting for election that is objective - particularly
true here, where the County’s signature review is rough-shod at
best and lacking qualified oversight and meaningful objection –
a process where a petition challenge actually challenges nearly
every single signature.

4
to determine a winner, here candidates must be given the
opportunity to show that the statistical margins of error
support the person’s being on the ballot.
And indeed, this Court has addressed these issues
prudentially protecting ballot access and voting rights.
See, Dunn v. Blumstein, 405 U.S. 330, 333 n.2 (1972)
(candidate residency requirement):
At the time the opinion below was filed, the next
election was to be held in November 1970, at
which time Blumstein would have met the threemonth part of Tennessee’s durational residency
requirements. The District Court properly
rejected the State’s position that the alleged
invalidity of the three-month requirement had
been rendered moot, and the State does not
pursue any mootness argument here. Although
appellee now can vote, the problem to voters
posed by the Tennessee residence requirements
is “’capable of repetition, yet evading review.’”
Moore v. Ogilvie, 394 U.S. 814, 816 (1969);
Southern Pacific Terminal Co. v. ICC, 219 U.S.
498, 515 (1911).
One commentator observed regarding Dunn, “[t]he
Court, in short, simply substituted ongoing harm to
Tennessee voters, coupled with likely recurrence as to
other Tennessee voters, for the purported “requirement”
that the moot claim be shown to be capable of repetition
as to the plaintiff.4
4. Matthew I. Hall, The Partially Prudential Doctrine of
Mootness, 77 Geo. Wash. L. Rev. 562, 593 and FN 137 noting (“The
Supreme Court has applied a similar rationale in numerous other

5
Our nation’s governing bedrock is the public
confidence in elections and its fair processes for those
seeking to participate.
This Court should grant this petition because it goes
directly to the credibility of elections and the fairness of
the process for citizens seeking to participate.
Dated: October 11, 2021
Respectfully submitted,
Clinton A. Krislov
Counsel of Record
Kenneth T. Goldstein
Krislov & A ssociates, Ltd.
20 North Wacker Drive, Suite 1006
Chicago, IL 60606
(312) 606-0500
Attorneys for Petitioners

cases in the area of voting rights law and elsewhere. See, e.g.,
Storer v. Brown, 415 U.S. 724 (1974)[ballot access of independent
candidates]; Rosario v. Rockefeller, 410 U.S. 752 (1973)[New York
residents not eligible to vote in primary election for failing to enroll
in a party before a cutoff date]).

